TA

Q@OCKLE

Le g al Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-371

STEPHEN S. WISE TEMPLE,
Petitioner,
v.
JULIE SU, as Labor Commissioner, etc.,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
STATE OF ALASKA AND ELEVEN OTHER STATES IN SUPPORT OF PETITION FOR WRIT
OF CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2733 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 21st day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
Seon , Eble Qudeawh,
My Commission Expires Nov 24, 2020 e

Notary Public Affiant 38866

 

 
